No. 21A14

In The

Supreme Court of the United States
FREDRIC N. ESHELMAN,
Applicant,
V.
PUMA BIOTECHNOLOGY, INC.,
Respondent.

RESPONSE TO EMERGENCY APPLICATION FOR A STAY OF THE MANDATE
OF THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
PENDING DISPOSITION OF FORTHCOMING PETITION FOR A WRIT OF CERTIORARI
AND REQUEST FOR AN ADMINISTRATIVE STAY

CERTIFICATE OF SERVICE
I, Roman Martinez, counsel for Respondent Puma Biotechnology, Inc., and a
member of the Bar of this Court, hereby certify that on the 11th day of August, 2021,
I caused to be served a single copy of the Response to Emergency Application for a
Stay of the Mandate of the United States Court of Appeals for the Fourth Circuit
Pending Disposition of Forthcoming Petition for a Writ of Certiorari and Request for
an Administrative Stay in the above-referenced case by first-class mail, postage
prepaid, upon counsel for Petitioner as listed below:

Elizabeth Marie Locke
Clare Locke LLP
10 Prince Street
Alexandria, VA 22314
libby@clarelocke.com
(202) 628-7402
Counsel for Petitioner
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Response to Emergency Application for a Stay of the Mandate of the
United States Court of Appeals for the Fourth Circuit Pending Disposition of
Forthcoming Petition for a Writ of Certiorari and Request for an Administrative Stay
was transmitted to the above-listed counsel at the referenced email address.
I further certify that all parties required to be served have been served.

By

Roman Martinez
LATHAM & WATKINS LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com
Counsel for Respondent

2

